<html>
<title> - EUROPEANS OF AFRICAN DESCENT `BLACK EUROPEANS': RACE, RIGHTS, AND POLITICS</title>
<body><pre>[Joint House and Senate Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





              


113th Congress                              Printed for the use of the
1st Session           Commission on Security and Cooperation in Europe
______________________________________________________________________
                                             
                                            
  

           EUROPEANS OF AFRICAN DESCENT `BLACK EUROPEANS': RACE, 
                               RIGHTS, AND POLITICS





                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                

                           NOVEMBER 19, 2013


                            Briefing of the
            Commission on Security and Cooperation in Europe
______________________________________________________________________

                            Washington: 2015








                                     

            Commission on Security and Cooperation in Europe
                     234 Ford House Office Building
                          Washington, DC 20515
                              202-225-1901
                          <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9dfeeefef8ddf0fcf4f1b3f5f2e8eef8b3faf2eb">[email&#160;protected]</a>
                          http://www.csce.gov



                      Legislative Branch Commissioners

                                                    
                 SENATE                                HOUSE
BENJAMIN L. CARDIN, Maryland,         CHRISTOPHER SMITH, New Jersey,          
  Chairman                              Co-Chairman
SHELDON WHITEHOUSE, Rhode Island      JOSEPH PITTS, Pennsylvania
TOM UDALL, New Mexico                 ROBERT ADERHOLT, Alabama
JEANNE SHAHEEN, New Hampshire         PHIL GINGREY, Georgia
RICHARD BLUMENTHAL, Connecticut       MICHAEL BURGESS, Texas
ROGER WICKER, Mississippi             ALCEE HASTINGS, Florida
SAXBY CHAMBLISS, Georgia              LOUISE McINTOSH SLAUGHTER,
JOHN BOOZMAN, Arkansas                  New York
                                      MIKE McINTYRE, North Carolina
                                      STEVE COHEN, Tennessee


                                  (ii)
                                     



           *         *         *         *         *
     ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

The Helsinki process, formally titled the Conference on Security and 
Cooperation in Europe, traces its origin to the signing of the Helsinki 
Final Act in Finland on August 1, 1975, by the leaders of 33 European 
countries, the United States and Canada. As of January 1, 1995, the 
Helsinki process was renamed the Organization for Security and 
Cooperation in Europe (OSCE). The membership of the OSCE has expanded 
to 56 partici- pating States, reflecting the breakup of the Soviet 
Union, Czechoslovakia, and Yugoslavia.
The OSCE Secretariat is in Vienna, Austria, where weekly meetings of 
the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
Although the OSCE continues to engage in standard setting in the fields 
of military security, economic and environmental cooperation, and human 
rights and humanitarian concerns, the Organization is primarily focused 
on initiatives designed to prevent, manage and resolve conflict within 
and among the participating States. The Organization deploys numerous 
missions and field activities located in Southeastern and Eastern 
Europe, the Caucasus, and Central Asia. The website of the OSCE is: 
<www.osce.org>.


           *         *         *         *         *
       ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

The Commission on Security and Cooperation in Europe, also known as the 
Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
The Commission consists of nine members from the United States Senate, 
nine members from the House of Representatives, and one member each 
from the Departments of State, Defense and Commerce. The positions of 
Chair and Co-Chair rotate between the Senate and House every two years, 
when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that 
reflect the views of Members of the Commission and/or its staff, and 
providing details about the activities of the Helsinki process and 
developments in OSCE participating States.
The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delega- 
tions to OSCE meetings. Members of the Commission have regular contact 
with 
parliamentarians, government officials, representatives of non-
governmental organiza- 
tions, and private individuals from participating States. The website 
of the Commission 
is: <www.csce.gov>.

                                 (iii)
  
                                     

   EUROPEANS OF AFRICAN DESCENT `BLACK EUROPEANS': RACE, RIGHTS, AND 
                                POLITICS

                                  ------------

                               November 19, 2013

                                 COMMISSIONERS

                                                                   Page
Hon. Alcee Hastings, Commission on Security and Cooperation in Europe..
                                                                      1
Hon. Benjamin Cardin, Chairman, Commission on Security and Cooperation 
in Europe..............................................................
                                                                     16

                                   WITNESSES

Larry Olomoofe, Racism and Xenophobia Adivser, OSCE/ODIHR, Poland......
                                                                      4
Hedwig Bvumburah, Director, Cross Culture International Foundation 
(CCIF), Malta..........................................................
                                                                      6
King C. Asante-Yeboa, President, Africa Center, Ukraine................
                                                                      7
Salome Mbugua, CEO, AkiDwA, Migrant Women's Network, Ireland...........
                                                                      8
Jallow Momodou, Vice Chair for European Network Against Racism; Chair, 
Pan-African Movement for Justice, Sweden...............................
                                                                     11

                                  (iv)




 
   EUROPEANS OF AFRICAN DESCENT `BLACK EUROPEANS': RACE, RIGHTS, AND 
                                                POLITICS

                              ------------

                           November 19, 2013

Commission on Security and Cooperation in Europe
                                                         Washington, DC

    The briefing was held from 11:12 a.m. to 12:49 p.m. EST in SDG-50 
Dirksen Senate Office Building, Washington D.C., Congressman Alcee 
Hastings, presiding.
    Mr. Hastings. Well, good morning, ladies and gentlemen. For those 
of you that are with our visiting delegation, a special welcome to you. 
Are any of you return visitors to the United States, anybody in the 
delegation that's traveling? One person at least; and the rest of you 
have been in and out of here like I've been in and out of Europe, and 
that's a good thing, but welcome first-time visitors and welcome to 
those of you that are back.
    I'm really pleased to have a delegation of black European rights 
leaders representing 10 European countries at today's briefing and in 
Washington, D.C. this entire week with the support of the Organization 
for Security and Cooperation in Europe and our State Department. If I 
could depart for just a moment from my prepared remarks, which are 
brief, and be equally brief with my extemporaneous remarks to thank a 
few people that have helped to bring this to fruition.
    I know by now that all of you know Dr. Mischa Thompson and Alex 
Johnson. They have worked with me assiduously in the development of 
this project, and not just your visit here, but in our previous 
undertaking as well. I'll know that one of our main contacts has been 
Larry Olomoofe, and I'm pleased that he is here with us this morning 
and also will be making a presentation.
    Of course, none of this, from the standpoint of finances, could 
happen if we didn't have the State Department and the German Marshall 
Fund, and I'm particularly grateful to who helped with causing this to 
come together and all of the other members of the State Department. It 
hasn't been easy, and all of this started in a conversation with Alex 
Johnson and myself a few years back, and I commented to him that in my 
travels--some of you may, in looking at my model, may have learned that 
I was President of the Parliamentary Assembly of the Organization for 
Security and Cooperation in Europe, and I think anybody that can say 
that should be the president of that organization.
    At that time, there were 56 countries, and just an hour ago, I met 
with the representative of Montenegro, which was the 57th country that 
I swore into the organization, and Mr. Krivopkapic is here now as the 
President of the Parliamentary Assembly. During that period of time, 
there was one period where I traveled to 31 European countries in two 
years. I kind of felt that my life was on the Atlantic Ocean more than 
in my home in Florida, and yes, I did manage to get elected again. I 
don't know how, but I did.
    In the conversation with Alex, we talked about trying to begin 
arrangements working with our parliamentarians and others of African 
descent in Europe and to try to get some empirical data not just on the 
inseparable triumvirate of inadequate jobs, inadequate housing, 
inadequate education; we knew that we would find that to be the case, 
having done a little bit of study with the Roma. Of course, I knew a 
lot about their plight and the similarities that existed.
    Alex did some basic research, and during the interim, we were able 
to have the good fortune of bringing Dr. Thompson onboard. She worked 
here at the United States Senate initially for a senator from Delaware, 
and I recruited her away to come with us to the Helsinki Commission, 
and she took to this project along with Alex, and we've kept it alive 
now, and I'll describe in a minute some of the meetings that we had. 
But there was one thing that sprung from it that really, really struck 
me personally, and that is that we learned that 100 years previous to 
our first meeting in Europe that we had of American black politicians 
and African descent politicians and others from NGOs in Europe--100 
years almost to the day, W.E.B. DuBois had done the identical thing, 
and I am just fascinated with the fact that we've had the good fortune 
since that time to have several academics--among them Dr. Allison 
Blakely, who now is the head of the W.E.B. DuBois organization and in 
addition, was a former professor at Harvard--several other people, 
including Dr. Thompson's professors here at Howard that have come on 
board and helped us gather empirical data. We are hopeful we will 
generate from this meeting additional data and we find successes and 
failures throughout.
    The other person that I did not mention that's also responsible for 
helping to get the funding for this is Margaret Paton. I certainly want 
to thank her. For so long throughout our change and our name from 
colored to negro to Afro-American to African-American, it looks like 
about every 13 and a half years, we change our name; I hope you all 
don't have that experience that we've had.
    With that said, for the very longest time, we remained 29 million 
negroes. I never did quite understand--all the census data and 
everything, we were always 29 million. Now we have several phenomena 
like that. The immigrants in this country now--we're supposed to have 
11 million undocumented immigrants, but we've had 11 million 
undocumented immigrants for 11 years, and my guess is, they had some 
children, and we must have a few more than 11 million.
    I'm sure, when I use the term seven to 10 million people of African 
descent currently living in Europe it is understood that these numbers 
are likely greater and forming an influential part of our African 
diaspora, the story of black Europeans remains widely untold, rendering 
many of their past and present contributions to political and social 
life of Europe invisible or forgotten, and even though they rival the 
numbers sometimes, or even more, for example, than those who share the 
Jewish faith--that number has held steady at 1.5 million in Europe.
    The Roma, considerably more, but still, African descent people in 
the range--Roma are described as between 10 and 15 million, and then 
there are other minority populations of substantial import throughout 
Europe. A parallel that's ongoing--another person that Dr. Thompson 
worked with--I hope he comes to our luncheon this afternoon is 
Congressman Gregory Meeks from New York. Congressman Meeks has been 
working on the African diaspora in Central and South America, and he is 
coming up with some pretty strong empirical data as well.
    Similar to the experiences of many African Americans, black 
Europeans have increasingly become the targets of discrimination, 
pernicious racial profiling and violent hate crimes impacting equal 
access to housing, employment, education. All of that adds up to a lack 
of justice.
    Recent racist acts are reported here in America and throughout 
Europe, including towards black European cabinet-level officials, such 
as throwing bananas and issuing death threats and other incidents 
targeting Minister Taubira in France and Minister Kyenge in Italy. 
These incidents have highlighted these issues of racism and national 
extremism and the need to increase the awareness of rights and 
protection for black Europeans. I also saw something with Santa's 
sidekick in one of the Scandinavian countries in blackface--that 
happened recently--Mr. Olomoofe can probably help me to know a little 
bit more about that cultural situation as it exists.
    On April 29, 2008, I had the good fortune to chair a U.S. Helsinki 
Commission hearing entitled ``The State of Invisible Black Europe: 
Race, Rights and Politics,'' which focused on bringing to light the 
daily challenges of racism and discrimination encountered by black 
Europeans, specifically with regard to their representation in 
leadership positions and political participation.
    Since then, I've worked with minority and other European 
legislators to convene annual events in Brussels, Belgium, at the 
European Parliament to address these issues, including the 2009 Black 
European Summit Transatlantic Dialogue on Political Inclusion and the 
2010 and 2011 Transatlantic Minority Political Leadership Conferences. 
Follow-on initiatives from these events have included the Transatlantic 
Inclusion Leaders Network, in cooperation with the State Department and 
the German Marshall Fund, which works to advance young, diverse and 
inclusive leaders on both sides of the Atlantic.
    This week, I plan to introduce legislation that details several 
concrete actions our and European governments can take to specifically 
address the situation of African descendents. First, following the 2011 
trans-Atlantic minority political leadership conference, the United 
States and European parliamentarians called for a joint U.S.-E.U. 
action plan to work on trans-Atlantic solutions to address bias and 
discrimination and foster inclusion, much in the same way we work 
jointly on counterterrorism, trade and other issues, so we are hopeful 
we will be able to work on that issue in a similar way.
    I urge the adoption of such an initiative to significantly increase 
the tools our governments have to address common issues, develop 
proactive policies, to meet changing demographics, leading to increased 
diversity in our societies and ultimately ensure the long-term 
stability and prosperity of our democracies. In the interim, our 
government can do more to partner with European public and private 
sectors and black and migrant communities to advance human rights and 
inclusion in Europe through our embassies and by appointing experts 
within our State Department on people of African descent and combating 
racism to join other ongoing initiatives on women, on youth, on LGBT, 
on disabled, on Jewish, on Muslim and other vulnerable communities.
    I live what I preach, and I have had the good fortune to come to 
the age of 77, with 51 of those years being as a lawyer, and a 
considerable portion of my time as a lawyer involved in what has been 
described as the civil rights movement in the United States of America. 
But to go even further, once I had the good fortune and privilege to 
serve here in the House of Representatives. I made it a point to have 
one, a diverse staff, and two, to advocate diversity and inclusion, and 
to utilize those opportunities to have interns work with me, and have 
for the 21 years that I am here.
    This is bragging a little bit. I believe I've had the most diverse 
office in the entirety of our Congress with regularity, largely for the 
reason that I wind up every year with people who come as interns. If 
any of you know of folk of African descent, and you who are interested 
in interning in a congressional office, then have them know that my 
door is open to either including them in my office or helping them to 
find a location if they're interested.
    This morning, I have a Croatian, a Portuguese, a Serbian and an 
African-American that are my interns that are in this room this 
morning. I wanted my Portuguese and Serbian interns to witness this, 
and my African-American intern especially since he's in the field of 
law and I'm sure much of this is of interest to him. There are others 
that may be here as well. Let me stop running my mouth and turn to the 
important work of the day. I'm hopeful, either here or at the lunch, 
that some of our colleagues will join us. But I would want to start by 
listening to the presenters, where I'm certain we will learn more 
information regarding the circumstances that you are confronted with at 
this time.
    So, Larry, you kick us off and tell us what you will, and then 
we'll just work down the line. And each of you introduce yourselves, 
your organizations, and we will listen to you, OK?
    Mr. Olomoofe. Thank you, Congressman Hastings. My name is Larry 
Olomoofe and I work for the OSCE Office for Democratic Institutions and 
Human Rights, based in Warsaw, as their advisor for combating racism 
and xenophobia, and training coordinator. I just would like to make a 
brief intervention here to first of all, express gratitude to the U.S. 
delegation to the OSCE for offering the kind of support and resources 
to assist us in putting not just this project together, but previous 
projects. As a way of introduction to our efforts within the OSCE, I 
would just like to give you a brief overview of activities and our 
commitment to combating racism and xenophobia.
    As part of the overall approach to responding to and preventing 
hate crimes, the OSCE has taken specific steps to address the 
manifestations of racism, xenophobia, discrimination and the 
intolerance faced by people of African descent in the OSCE region. The 
OSCE Permanent Council in 2006 and 2009 have tasked ODIHR to tackle the 
root causes of intolerance and discrimination.
    Also, since 2009 ODIHR has conducted a series of activities, 
including trainings, roundtables, conferences and meetings and projects 
and a number of focus groups with some members of the PAD, people of 
African descent communities, in a number of participating states. It is 
the information gathered from these events that helps to guide and 
inform ODIHR's activities in the field. I will take the opportunity now 
to provide a timeline of ODIHR's activities and interventions and a few 
outcomes below.
    November 2011, in Vienna, we conducted, again with the kind 
assistance of the U.S. delegation to the OSCE, a roundtable on 
contemporary forms of racism and xenophobia affecting people of African 
descent in the OSCE region. Also in November 2011, the OSCE convened a 
Supplementary Human Dimension meeting on the Prevention of Racism, 
Xenophobia and Hate Crimes through education and awareness-raising 
initiatives in Vienna.
    In January through to August 2012, ODIHR conducted a series of 
focus groups in Bulgaria, Hungary, Poland, as well as a number of 
personal testaments from Austria, Moldova, Slovenia, Spain, Ukraine and 
United Kingdom, which have helped inform some of the activities that 
we've conducted internally in ODIHR and to develop policies addressing 
or affecting--I guess issues affecting people of African descent.
    In April 2012, the OSCE also convened a second Supplementary Human 
Dimension meeting, this time on combating racism, intolerance and 
discrimination in society through sport in Vienna. At the time it was 
considered an opportune moment with major sporting events in 2012 
taking place, with the Olympics in London and the World Cup. At the 
time, give provide the platform for using sport to raise awareness, not 
just about racism in sport but society as well, and using sport as a 
vehicle to combat this form of racism and instances of intolerance that 
people of African descent face in Europe, in the immediate sense, and 
the OSCE region in its greater and wider sense.
    In September 2012, the ODIHR offices conducted a meeting between 
the Polish immigrants of African descent, as well as the minister of 
interior, immigration and the police. That particular meeting was 
convened to address the particular tensions between African descendant 
people in Poland and the police, who some would say had a rather 
fractious relationship.
    It was, in a sense, a bridging of the gap between the two 
communities to talk about why people of African descent refused or were 
reluctant to report incidents of discrimination or hate crime 
themselves to the police and law enforcement authorities. At that 
meeting there were a number of recommendations, which ODIHR have now 
put into place in terms of training for law enforcement officers. I can 
present the information related to that at a later time.
    In September, also of 2012, through to October we conducted, at 
ODIHR, a training for people of African descent on confronting and 
responding to hate crime. We had some of the members around the table 
here and the broad group who've come on this study were also 
participants in a training in Warsaw. And through that training we 
identified five particular projects in-country that have been 
supported, again with kind assistance and resources from the U.S. 
delegation, to conduct awareness-raising initiatives at home as well as 
to confront and combat racism and xenophobia.
    In October 2012, also for the first time actually, people of 
African descent participated fully and made recommendations at ODIHR's 
annual Human Dimension Implementation Meeting. It was a direct 
consequence of the initiative that we conducted in the previous days 
prior to that. Through July to December 2013, we've been implementing 
and overseeing fine, small-scale projects which were mentioned earlier. 
I hope that some of the people who are conducting these projects will 
present their information and narratives to you later on. This study 
tour also is supported and part of that process too.
    So while these efforts have a number of positive outcomes and 
benefits for those involved, we still feel that more work has to be 
done. Despite being victims of hate crimes and hate incidents, many 
people of African descent in the region do not report these incidents 
to law enforcement or to the authorities, for a variety of reasons.
    This is a cause for concern since many, many victims are suffering 
in silence and feel helpless in the face of aggressive nationalism and/
or hate crime. Under-enforcing of racist hate crimes and incidents 
continue to be an issue and it needs to be addressed by all concerned 
and all parties; that is authorities, people of African descendent 
communities and their representatives, as well as international 
organizations such as the OSCE. We remain committed to tackling racism 
and intolerance and discrimination and prejudice in all their forms, 
and we'd like to take this opportunity once again to thank the U.S. 
delegation for their continued support in this regard. Thank you.
    Ms. Bvumburah. My name is Hedwig Bvumburah. I am a director with 
Cross Culture International Foundation in Malta. My work entails 
working with migrants, the majority of whom are of African descent.
    Malta has a very unique situation in that it is situated right in 
the middle of the Mediterranean Sea, and as such most of the migrants 
end up here when they get shipwrecked at sea or encounter problems on 
their way to Italy. At the moment, we are concentrating our efforts on 
human trafficking, as we feel that some of these migrants reaching our 
shores could be trafficked. Our Maltese government at the moment also 
is concentrating on human trafficking but, you know, not dealing with 
people of African descent.
    Malta is being used as a transit point and a destination for 
trafficked persons. Malta is still not reaching U.S. targets to stop 
human trafficking, and as a result is placed on tier 2 after being 
moved up a notch into tier 2 of the Trafficking Victims Protection 
report after being featured on the tier 2 watch list for two 
consecutive years.
    On the ground there is very little the government is doing to 
identify victims of human trafficking when they process their cases. 
All irregular migrants living in Malta are currently held in detention 
for a year, though some stay up to 18 months. In the meantime, access 
to these migrants is very difficult for NGOs whilst they are in 
detention. We are also educating the public on how to identify victims 
of human trafficking within their communities.
    The majority of immigrants living in Malta enjoy freedom of 
movement and a work permit, which entitles them to seek regular 
employment. However, many of these immigrants, adopting an attitude 
that a little is better than nothing, fall victim to exploitative 
practices at the hands of local employers, especially in the 
construction sector. Besides paying the workers wages that are far 
below the national minimum wage, these unscrupulous employers disregard 
occupational health and safety standards. Furthermore, as these workers 
are not registered officially, they are not entitled to benefits such 
as paid leave and sick leave. Irregular workers accepted these 
conditions for fear of losing the little income that they are earning 
and the fear of being deported.
    There was an EU-wide study released by the British Council and the 
Migration Policy Group of the U.K. on the way EU member states treat 
migrants, which placed Malta 23rd in a 28-country migrants' rights 
scoreboard. According to this study, migrants in Malta are explicitly 
exposed to nationality discrimination, and the Maltese are consistently 
the least supportive of migrants' rights. Malta has a well-known 
``pushback'' policy, where irregular migrants are deported.
    Malta is also an intolerant place for migrants. Political 
participation is non-existent for all foreigners, even if they are 
fellow EU citizens. Malta is also very tough on nationality access. The 
2000 Maltese Citizenship Act limits naturalization to children and 
descendants of those who are, were, or became Maltese citizens.
    Without that connection, migrants can only naturalize if the 
government, under total discretion, decided they are eligible at best 
on humanitarian grounds. The month of October--I'm sure most of you 
might have seen it on national televisions--saw more than 500 souls 
perish in the Mediterranean Sea. These were migrants on their way from 
Africa and Syria en route to Italy. Based on what I have just said, I 
would like to make some recommendations:
    There should be more burden-sharing among member states and the 
international community. More should be done, although a few of the 
refugees and those with subsidiary protection are relocated. Our 
detention policy should be abolished altogether or reduced to a minimum 
of three months at most. The EU needs to finally make a common asylum 
system a reality. Greater solidarity with EU member states on Eastern 
and Southern Mediterranean coasts should be shown.
    The Dublin III regulations should be abolished so that each member 
state should be able to process claims for asylum regardless of where 
the asylum seeker has entered the Union. The EU has to approve, as a 
matter of priority, further possibilities of creating legal access to 
the EU through visas issued in countries outside the EU. This would 
also make sure that, lives will not unnecessarily be lost at sea.
    The removal of the Dublin regulations would give the possibility 
for migrants landing in Malta to transfer to other EU countries whilst 
their asylum application is being examined.
    Pressure should also be exerted on Malta to improve its human 
trafficking record. With regards to the number of lives that have been 
lost at sea, maybe the EU and Congress can come up with solutions that 
will deal with the problems at the source rather than letting people 
come across for them to lose their lives at sea. As an NGO, we'd also 
like to partner with the U.S. embassy in Malta, if that can be done. 
Thank you.
    Mr. Asante-Yeboa. I am King Asante-Yeboa, President of the African 
Center in Ukraine. The African Center is based in Kiev, Ukraine, and is 
the largest African institution in Eastern Europe. Among other things, 
it defends the rights of Africans and promotes the positive side of 
Africa. The center is the platform for promoting diversity, respect, 
intercultural dialogue and many others things. We do this through 
various actions.
    We are pleased to have the cooperation of the U.S. embassy in Kiev, 
the European Union, and the OSCE, just to mention a few. Our social and 
cultural actions in partnership with the Association FARE--that is 
Football Against Racism in Europe, which is based in the U.K--Never 
Again based in Poland, United for Intercultural Action based in 
Holland, and then The Edge also based in Holland, have been very 
successful.
    Racial abuse, xenophobia and other related hate crimes are by far 
the major concern of the African diaspora in Eastern Europe, as are 
concerns of migrants everywhere. It is important to take the necessary 
steps to adequately address this so as to not repeat the horrors of 
2006 to 2011, when mainly African migrants were targeted and brutally 
attacked, resulting in loss of lives. I, myself, was a victim of such 
brutal attack where the perpetrators, 15 of them armed with knives and 
various clubs, were bent on hacking me to death. I am lucky to have 
survived such an attack.
    However, the timely intervention of Mr. Mark Wood, then-Human 
Rights Officer of the U.S. embassy in Kiev when he visited me and saw 
my condition at the hospital after the operation--he quickly arranged 
with Mr. Jeff Labovits, then-Chief of Mission of the International 
Organization for Migration to take me to another hospital for intensive 
care. That is why I am alive and talking today. I just would like to 
show a picture of what I'm talking about.
    Though migrants generally face several problems, it is necessary to 
also mention that people of African descent bear the blunt in most 
cases. Here are three major points worth mentioning: Point one is human 
rights. Africans in Ukraine, Russia, Moldova and other countries of the 
former Soviet republics have asked several times that the law 
enforcement organs take necessary steps to address abuses of their 
rights. In fact, we are asking for the basic rights accorded to every 
person. This includes intervention and protection in case of attack.
    Point two: integration. The world has become a global village as we 
all see. People travel to other countries for several reasons. But it 
becomes another issue if the ``system''--system in quote--if the 
``system'' is such that you are not integrated. For instance, even if 
an African has Ukrainian nationality, it does not necessarily make him 
or her part of the society nor can he or she be accorded the basic 
rights. Africans who are married to Ukrainians have the same concern. I 
must add that the African-Ukrainian children also face the same 
problem, even though one of their parents is Ukrainian.
    Point three: employment. Africans' rights are not protected at all 
in this area. The result is that employers hire them to work for 
months, at times up to a year, then sack them without paying them.
    I take this opportunity to commend the Office for Democratic 
Institutions and Human Rights for their work in Eastern Europe, 
training law enforcement officers and civil society leaders to take up 
the challenge, and so on and so forth. It is also necessary to mention 
the role of the U.S. government, the U.S. embassy and other embassies 
as well. My colleagues and I have had the opportunity to attend various 
meetings, for example, during the visits of Vice President Joe Biden, 
also when Mrs. Clinton, the then-Secretary of State visited. The U.S. 
embassy has a program they call the Ambassador's Forum, in which they 
invite us to participate. I must emphasize here, in most of these 
programs or meetings, they speak on diversity and they impress on the 
Ukrainian government the need to do more to promote diversity.
    Effective collaboration of the African diaspora would help better 
in dealing with the situations cited above and similar ones. Our active 
participation in seeking solutions to issues that concern us is also 
crucial. We look forward to continuing working with the Ukrainian 
government, which also happens to be the current chairperson of the 
OSCE. It is our hope, therefore, that a group of this study tour, which 
has so far been exposed to the working systems of various U.S. 
departments and institutions here in Washington, D.C., with more places 
to visit, would be strengthened and that it would receive the needed 
support enabling us to effectively help in promoting progress of the 
African diaspora and also contributing more meaningfully in our 
respective places of residence. I thank you for your attention and your 
time. We hope to meet with you again.
    Ms. Mbugua. Thank you. My name is Salome Mbugua and I'm from 
Ireland. As many people know, or all of you know, Ireland has been a 
country of immigration where most of people coming into Ireland has 
come in since the late 1990s.
    The recent census, however, shows that immigration into Ireland 
continues, and numbers of non-Irish foreign nationals have increased in 
the last census, which was 2006. But 2011 is the very recent one. Over 
500,000 people born outside Ireland now live in Ireland. Out of that, 
we have around 41,000--or, almost to 42,000 Africans, which is 0.91 
percent of the total population.
    My organization that I represent here, which is called AkiDwA, it's 
Swahili for sisterhood, was established in 2001 by African migrant 
women to address the issues that they were experiencing at the time. 
Such issues were issues of isolation, racism and gender-based violence. 
AkiDwA, therefore, works for a just society, where there is equal 
opportunity and equal access to resources in all aspects of society. 
That is: social, cultural, economic, civic and political.
    Given the current statistics on racism and racial incidents in 
Ireland, it is clear that racist attitudes and deep-rooted prejudices 
still exist within Irish society. In order to protect people who 
continue to become victims of racism or hate crime, or that are 
vulnerable to racism and xenophobia, we would need to have political 
will and commitment to solve this problem. I give you examples of what 
has happened previously.
    In a radio interview in 2011, one of the councilors--Councilor 
Scully, Darren, who is a public representative and former mayor of 
Naas--said that he would no longer represent black Africans--he 
regarded them as aggressive and bad mannered--and that he would refer 
them to another politician to deal with them.
    Three in every five of the TDs, or Irish members of Parliament, 
responding to a survey that was carried out by professional polling 
company said they had encountered racist sentiment while canvassing in 
the 2011 general election. More than a third of the TDs, or Irish 
members of Parliament, said speaking out in favor of a migrant would 
have negative effects for their election or for them to be re-elected.
    Almost 50 percent of teachers have reported racist incidents in 
their schools or colleges in the past month, according to survey by the 
Teachers' Union. In 2009 research that was done by the Economic 
Research Institute and Equality Authority on employment, showed very 
strong discrimination in Ireland of people whose name is not Irish . . 
. that they would not even be called for interview. Most racists 
incident or attitudes were also found to be directed towards black 
Africans.
    Racism in the media had been a big problem in the way the reporting 
takes place, such as stereotyping and painting different levels of 
reporting on stories of people from ethnic minorities as negative. For 
example, one of the journalists, Kevin Myers, and who is a writer of 
the Irish Independent paper, said that: Africa has given the world 
nothing but AIDS. Representation of migrant, and black people in 
particular, is completely lacking in the mainstream media. And you do 
not actually see the migrant in the mainstream media in particular.
    Women members of my organization continue to report to the 
organization of their daily experiences of racism which is both verbal 
and physical, in their residence where they live, while walking on the 
street or trying to access services. Many women also struggle, managing 
racism directed at their children. A majority would keep their children 
indoors never to get out to protect them.
    Many women members have also expressed their reluctance to report 
racist incidents to the police, with reasons that they get a feeling of 
intimidation when they go at the police station. When they get there, 
they are asked of their immigration status rather than them being 
supported. Racism also while trying to access public services takes 
many different forms, as women report. It's the way they are spoken to, 
the manner, the tone, by the officials which actually show the 
prejudiced behavior and sometimes deny services.
    There is no reflection of the migrant, and especially people of 
different backgrounds, in the political participation. Democratic 
participation, as we all know, is lacking. About 12 percent of the 
population are from the immigrant background. Many immigrants are 
involved in religion and community organizations, but still have yet to 
see their involvement in the politics or decision making. Immigrant 
participation at the local level is believed to be one of the most 
effective, but yet it's lacking in Ireland. These reflections of 
diversity do not exist anywhere, whether it's social or in the 
political arena.
    On education, the exemption in Ireland equality legislation that 
allows religious schools to give preference to children of the school 
faith in order to preserve the ethos of the school has a negative 
impact on children from minority ethnic groups who are also members of 
minority religious communities, as the vast majority of state-run 
religious schools are Catholic, the predominant religion in the state.
    In 2007, for example, children were left stranded without school 
places. Educate Together schools have been established and have now 
largely accommodated children from the ethnic minority. Mainstream 
schools need to be properly resourced to meet the diversity of the 
students. These also need to have the reflection of diversity within 
the school curriculum that should be reviewed while handling racist 
bullying in schools. All schools also need to have anti-racism policies 
that identify the steps that will be taken to address racist bullying 
when it occurs.
    The whole issue of access to third-level education has been 
difficult and has an impact on children who are living, for example, in 
accommodation centers of parents seeking asylum. It's difficult for 
them to access due to high cost. They are also not allowed to access 
any vocational training or courses run by bodies funded by the 
government. Immigration and asylum laws and policies have actually also 
impacted the mental health and well-being of most people who have been 
seeking asylum in Ireland. Some people have to wait for three to eight 
years for their situations to be decided.
    On citizenship, the majority of the people have become citizens. 
Since 2009, we appreciate that the Irish government has awarded 
citizenship to at least 59,000 immigrants who have actually 
naturalized. However, the citizenship referendum of 2004 left large 
gaps, especially with the children who are born on the island of 
Ireland not having access to citizenship at all.
    I would like to recommend for my organization, that legal 
protection is very important. Acts of racism and unlawful racial 
discrimination, including incitement of racial hatred and racist 
attacks, are serious violations of human rights, and should be combated 
by all lawful means. Ireland needs to have a law on racist crimes, to 
prosecute effectively and adequately racist-type violence.
    We also need to have education and awareness-raising and to 
encourage the introduction of human rights education, including 
promoting anti-racism in the school curriculum and in institutions of 
higher education.
    Coming from a woman's organization, we would also like to recommend 
that women be supported more. Women's rights and necessary protections, 
with regard to racism and discrimination, must be ensured through 
gender mainstreaming of existing legal policies that we have in place. 
The government should commit itself to responding to the specific needs 
of migrant women by providing culturally appropriate services and 
support in relation to, for example, issues of female genital 
mutilation, sexual abuse, domestic violence and many others. The way 
the reporting is done needs to be improved. It's therefore important to 
have a national racist reporting and monitoring system that is 
independent from that of the police and that enables reporting of 
racist incidents other than those currently defined as crime.
    Monitoring is also very crucial. We need to have independent 
monitoring of public bodies to assess their role when we come to issues 
of negative racial and ethnic profiling. To finish, we would also 
actually like to recommend from my organization that we've learned 
quite a lot during the visit here and the way, for example, the U.S. 
has tried to encourage the diversity of people in the workplace. This 
diversity is very important for all the countries and, I would say, in 
Europe. For example, the diversity should reflect on the social, 
economic and political arena, like we've been hearing this week.
    Thank you.
    Mr. Momodou. Thank you. So my name is Jallow Momodou, and I am the 
Vice Chair for the European Network Against Racism, which is one of the 
largest international organizations working on these issues in Europe. 
I'm also the Chair for a national organization in Sweden called the 
Pan-African Movement for Justice.
    The European Network Against Racism, ENAR, as it is called, is 
Europe's biggest anti-racist umbrella organization, covering over 30 
countries in Europe, and will expand in the coming year to the Council 
of Europe countries. ENAR is being re-profiled as an organization that 
has a political understanding of the challenges at stake in Europe. The 
challenging political and economic European context, which is 
increasingly restrictive on equality and fundamental rights issues, 
forced ENAR to consider both our approach to anti-racism and governance 
and membership structure to maintain our role as the agenda setter that 
we have been for the past 15 years.
    It is estimated, as it was named earlier on, that approximately 
between 7 to 10 or some, say, 15 million individuals--it's difficult to 
confirm this figure because one of the problems that we have in Europe 
is that we do not have this aggregated data collection, which means 
that you cannot collect data based on race or ethnicity in most 
European countries, and it makes it impossible to get the right 
figures. That is one of the problems that we need to address.
    Most of these people have been long present in Europe. The United 
Nations International Year for People of African Descent in 2011 was 
the biggest global campaign designed to acknowledge the history of 
colonialism, slavery and the transatlantic slave trade. And this 
campaign was merely made visible in Europe.
    The Fundamental Rights Agency's, FRA, survey indicates that people 
of African descent and black Europeans experience the highest 
victimization level in the EU. In November 2012 the EU-MIDIS survey by 
the FRA finds that nearly every fifth sub-Saharan African interviewed 
said on average that they had suffered serious harassment at least once 
in the last 12 months; that was over 18 percent. ENAR in 2010/11 had a 
shadow report on racism in Europe, which shows that specific groups are 
particularly vulnerable: sub-Saharan Africans in Malta, black 
Caribbeans in the U.K., the Somalis in Sweden. You have reports from 
Latvia, from Lithuania, from Romania, from Bulgaria that highlight that 
while people of African descent are few in number, they are nonetheless 
specifically targeted.
    There are so many examples of hate crimes that black people have to 
endure. I would name a few. Some of you might have read, or maybe not, 
an Italian man opened fire in two marketplaces in central Florence, in 
Italy, killing two Senegalese traders and injuring three others. An 
undercover Austrian police officer beat a black U.S. teacher really 
bad, and the excuse was that he was mistaken for an African drug 
dealer. A Senegalese woman was shot dead by the German police during a 
scuffle with her ex-husband over the right of her baby in Bayern, in 
Germany. A man was tied down and left to burn to death in a 900-degrees 
flame in a police station. These are just few cases affecting black 
people. They happen, and none of the people that created these crimes 
were punished in any way. That is the problem that we see in Europe.
    I come from a country that is known globally for its so-called 
liberal values but yet has high levels of racial profiling and police 
brutality, like most of Europe, by law enforcement agencies with 
impunity. Levels of racial profiling and police brutality are 
increasing. It's been normalized, it's been legitimized. Afrophobia, as 
we call it--you call it in the U.S. anti-black racism--is increasing in 
this country, and I'm talking about Sweden. When we talk about Sweden, 
quite often that's not the image that we get. But it's important that 
we know, behind the image, that's a reality that black people face, and 
that is quite different from the image that we have. So we need to 
revisit our understanding of what image Sweden really should have.
    In the last two months, there was a guy in Sweden, a black man that 
was attacked by 10 men. And he was beaten up seriously. They wanted to 
kill. It was an attempted murder. He was beaten unconscious in front of 
his 18-month-old son, and the son was crying, Papa, Papa, whilst they 
were kicking and beating him. When he got unconscious, they lifted him 
up; they wanted to throw him down a bridge four meters high. And under 
the bridge, there were cars, there were vehicles running. Now, luckily, 
he's still alive, he didn't die. But his family, their lives are still 
at stake because the people that committed this crime are still free. 
Nobody has been arrested so far so this crime. And we find this a 
problem because impunity has been something that we've seen, especially 
when it comes to police brutality, and especially when it comes to 
crimes that are committed against black people.
    A country where the latest reports on hate crimes clearly indicates 
that hate crimes motivated by Afrophobia have increased 24 percent and 
are the highest in Sweden now. But yet no attempts have been made by 
any political representative to neither acknowledge the increasing 
vulnerability nor articulate any policies geared towards protecting the 
civil and human rights of people of African descent and black Europeans 
in Sweden. Those of us from the Pan-African Movement of Justice who 
make attempts to articulate the harsh realities of Afro-Swedes, as we 
call ourselves, are constantly threatened and ridiculed with impunity. 
I have pictures of myself hanging in the sea, with nooses and chains 
around my neck, calling me the n-word, that I'm a runaway slave. I have 
those pictures with me in case somebody wants to see.
    Paradoxically, there has been relatively little attention paid to 
the pervasiveness of Afrophobia in Sweden and the rest of Europe and 
its massive impact on people of African descent and black Europeans' 
socioeconomic and political conditions. I normally call this `loud 
silence' because it is a conscious attempt to make our realities 
invisible, not only in Sweden but the entire Europe.
    While a number of legal measures already exist in Europe, we tackle 
racism and antidiscrimination, notably the Racial Equality Directive 
and the Framework Decision on Combating Racism and Xenophobia. It is 
clear that Afrophobia nonetheless remains a pressing and urgent 
concern. ENAR and the Pan-African Movement for Justice consider that 
the specific problems faced by people of African descent in Europe mean 
that the existing legal instruments cannot adequately address the 
problem and must be reinforced by comprehensive efforts on the part of 
the policymakers and civil society to tackle Afrophobia and promote 
inclusion.
    Now, we're here to form coalitions but also to ask for assistance 
from the U.S. government. We have specific areas and forms of 
assistance that we need from the U.S. government agencies and 
institutions.
    One of them is to be engaged and to be vocal on the specific issues 
of Afrophobia and social inclusion of people of African descent and 
black Europeans in Europe, both in American, European and international 
platforms and forums. Second, we need assistance in advocating 
publically for the political recognition of Afrophobia and the need for 
evidence-based policies in Europe.
    We also need assistance to finance European initiatives related to 
the fight against Afrophobia, to mention the European issue of people 
of African descent in policy documents in the U.S., to advocate for a 
common EU framework for the collection and analysis of reliable 
comparable data disaggregated by racial or ethnic origin for the 
purpose of combating discrimination and racism in accordance with the 
data protection safeguards.
    In conclusion, if the EU and its member states are to be successful 
in curbing Afrophobia and preparing all their citizens for a more 
inclusive and diverse Europe for the future, a change in approach is 
required at all levels. ENAR and the Pan-African Movement for Justice 
strongly believe that all the parties involved should rise to the 
challenges of promoting a progressive narrative on equality and 
diversity while ensuring the respect and fulfillment of fundamental 
rights and encouraging full inclusion of all.
    These objectives, even though long-term, are meant to set the stage 
for progressive dialogue on policy formulations and political reforms 
within the EU to help in articulating and promoting a whole society 
vision guaranteeing security, equality and prosperity for people of 
African descent and black Europeans by maximizing our potential towards 
developing confident and strong communities, integrated and cohesive 
societies, as well as a stable and prosperous Europe.
    Thank you.
    Mr. Hastings. I'm going to begin by asking just a few questions, 
and then those with the delegation, in addition to other audience 
members, will be able to ask questions. And one of our interns from the 
Helsinki Commission will bring you the microphone.
    Your remarks have been enlightening and piercing and, in many 
respects, uncomfortable for me, not only as a member of the United 
States Congress, but as a citizen of the world. I could share so many 
anecdotes of discrimination that I've seen and that I've faced. I 
travel in and out of Frankfurt an awful lot, and I think it would stun 
you to know that probably, without any exaggeration, I would think 
eight out of the last 10 visits that I went through Frankfurt, I was 
stopped by the authorities largely because, I guess to them, I look 
Arab or Ethiopian or Somalian or whatever they--but they stopped me. On 
two occasions, I actually missed my airplane because of their delay.
    But now, I don't want to leave that at Frankfurt's door. On six of 
the last 10 trips that I've taken from Washington National Airport to 
Florida, I have been stopped by the authorities. Now, more recently I'm 
putting it on the fact that I had a full knee replacement, and the 
machine goes off. But they stop me a lot of times before I even get to 
the machine. So it ain't my knee, you know, that they're looking at. 
Now, mind you, I'm a member of the House of Representatives, a member 
of the Trusted Travelers program. Yet it persists. In Denmark, very 
liberal-sounding country until you are there a lot, I was called a n--- 
twice in that place. I could go on and on and on. I've seen it all 
over.
    I guess what we need are solutions. Out of all of your comments, I 
did not hear, nor am I an overbearing person on, the subject of 
religion, but I didn't hear a single one of you mention, in your 
recommendations, the possibility of joining with inter-disciplinary, 
ecumenical and interreligious organizations as you thrust forward. I 
only offer that for the reason that when I began filing lawsuits as a 
lawyer for folk victimized by racism, I don't think I would have had a 
lot of success had it not been for a variety of ministers and rabbis at 
the time that were the backbone of what we were doing. I'd been 
interested in any of your views on that. Do you interface at all with 
the religious organizations, with no particular faith in mind, and is 
that of any value of you at this time? Let anybody respond that cares 
to. Mr. Momodou.
    Mr. Momodou. Thank you for that question. Yes, we have not 
mentioned, any of us, none of us have mentioned what you meant, the 
religious aspect. The reason is because when it comes to racial 
profiling, as we mentioned earlier, when people are stopped at 
airports, they're black people; they're not stopped based on their 
religion, they're stopped based on their skin color.
    We've seen in Europe that several initiatives have come to exist, 
but quite seldom do you see initiatives that focus on black people, on 
the color of our skin as the basis upon which the discrimination that 
we face is fundamental. For us, this invisibility of our existence and 
the racism that we face, just merely because of the color of our skin, 
we think it is extremely important we need to focus our attention in 
trying to raise awareness and focus it into that problem.
    Now, we do work with religious organizations, like, the European 
Network Against Racism, we have initiatives that are geared towards 
Islamophobia. We have several projects that we're working on with 
organizations that are working to fight against Islamophobia or to 
fight against all of these different phobias that affect different 
religions.
    In Malmo, where I live, you probably know there has been a lot of 
discussion in regards to Islamophobia but also with the Jewish 
population. Now, the American government sent a delegation to Malmo in 
regards to this issue. What we have there, we have what we call the 
dialogue forum in which all of the different religious groups meet but 
also people of African descent.We sit down, and we have a dialogue, and 
we work together on how we can have a coalition and to be able to fight 
some of the problems that we face, social exclusion and all the 
problems that we face together. So those kinds of initiatives are 
really, really good, and we are engaged in those kinds of initiatives 
right now from different levels.
    Mr. Olomoofe. On this point, the OSCE ODIHR, we do have particular 
portfolio which deals with particular forms of discrimination and 
intolerance. So we do have an adviser combating anti-Semitism, an 
adviser combating intolerance against Muslims. Recently, what we're 
tried to do with ODIHR is look at the intersectionality of these 
particular forms. So whilst race may be the predominant feature in 
itself that we look at, we also look at how religion may exacerbate or 
one's religious affiliation may exacerbate the discrimination they face 
and look at how we could develop policies and initiatives that address 
that. One of the things we are doing right now in ODHIR is training 
across the spectrum. There's a couple of people who we've met recently 
who are part of the delegation today who were initially interested in 
addressing faith-based discrimination but where racial identity also 
was added to the discrimination they faced, and they felt that it was 
important for them to be here, part of the group as well to talk about 
their experiences from those twin perspectives. The other thing is that 
we are looking at how gender or how race is--in a sense, racial 
experience or discrimination is actually differentiated along these 
lines of gender. A black woman, for instance, would suffer a particular 
form of discrimination that black Muslim men may not because of the 
fact that they may have to wear the hijab or the headscarf, and we 
receive information that indicates that black Muslim women suffer a 
more egregious form of discrimination because of the fact that people 
feel they could go and confront them about wearing a headscarf in 
public spaces, for instance. That helps to focus whatever our 
intervention will be at that particular time, whether it's a response 
to or through the government for law enforcement or the judiciary, or 
training about this particular thing.
    Part or the primary purpose of this particular study is to 
establish an understanding and an appreciation that race is a dominant 
factor and it does affect how people interact in society. The other 
aspects which are not so visible through--when they do become visible, 
whether from wearing the headscarf or expression, exacerbates or 
extenuates that particular form of discrimination. At the OSCE, we're 
looking to see how we can develop policies or inform government to 
address between aspects and not just look at one of them. While no one 
here may have mentioned anything about working with religious or faith-
based entities, it is still part of the discussion and part the 
discourse as well and part of the advice that we would give to anyone, 
which is to establish these collaborative aspects and approaches across 
the spectrum, because discrimination, in the end, it does affect--at 
least what we say about hate crime and hate incidents, affects us all.
    Mr. Hastings. Right. If you're going to have a Europe-wide 
strategy--and I advocate for you that that's what is ultimately going 
to be needed with the numbers that you have and the difficulties that 
each of the communities are facing in various countries, my belief is 
that, when I was demonstrating in the streets and encouraging 
demonstrations, I did not at any point not know that I was black and I 
was also a member of a religious faith. But what I looked to the 
religious organizations for guidance and to lay business community and 
in the political community the foundation of tolerance that is their 
basic premise.
    Now, I'm talking 50 years ago and for a substantial number of years 
following. But in the beginning, I know them as if it were happening 
today for you. The Minister of the largest black church in Fort 
Lauderdale, Florida, was named George Weava. One of the most dynamic 
theologians I've ever met in my life was a Unitarian named Robert 
Weston. The rabbi that worked with us was Irving Lerhman. All of these 
people are since deceased. The archbishop at that time was Archbishop 
Carroll of the Catholic Church. The bishop was Bishop Duncan of the 
Episcopal Church. Then there were other ministers. I found great irony. 
Three weeks ago, I attended a funeral of one of the more dynamic black 
theologians in Florida, and it was held at First Baptist Church because 
it was the largest venue that could be held. First Baptist Church 50 
years ago would not allow us to have meetings as other churches did. 
But those churches and synagogues, we didn't have many mosques at that 
time. If I were advocating--and I do today at home--I would include 
that we must involve the Baha'is, the Muslims, the Buddhists in that 
inter-religious experience. If you get them talking, then they affect 
businesses and politics, and that's the point that I was trying to 
make.
    We've been joined by the Chair of the Commission for Security and 
Cooperation in Europe, the Helsinki Commission. A longstanding friend 
of mine, he happens to represent an extremely diverse state right 
across from here on the river or the beltway. He represents Maryland, 
and has been a dear friend of mine. I served with him in the House of 
Representatives for a number of years, and then of course he became a 
Senator. We refer to over here as the other body. They do kind of 
operate different than we in the House of Representatives, but I'm very 
pleased. If you all will let me interrupt the questions, allow Senator 
Ben Cardin to make any comment that he might wish to make. I told you 
that I was in a meeting with the President of the Parliamentary 
Assembly of the Organization for Security and Cooperation in Europe 
from Montenegro. Senator Cardin convened that meeting earlier and then 
had to leave and go to another meeting doing some important work. This 
is something that the United States does an awful lot of that I'm proud 
of. We all know what the Typhoon Haiyan did in the Philippines. Well, 
he held the hearing and is coming from that hearing to us as the chair 
of the committee that would be dealing with that subject on trying to 
figure out what more can we do from the United States. Had I been in 
the hearing with him, I would have said we could ask China to send a 
little more money than they did. I don't have much money, but the 
little that I sent almost per capita weighs what they sent, and I just 
use that as a dig at them for not getting past themselves. I might add 
the Japanese were very forthcoming, as have been other countries, 
including Scandinavian countries.
    Senator Cardin.
    Mr. Cardin. Well, first to Congressman Hastings, thank you so much 
for your extraordinary leadership on this subject. There was no more 
important moment on the subject we're talking about today than when 
Congressman Hastings was elected president of the OSCE Parliamentary 
Assembly. It was a powerful message that we stand up for opportunity 
for all people. The Helsinki process is one that recognizes for a 
country to be stable, it has to respect the rights of its citizens. 
Otherwise you can have the strongest military in the world, you're not 
going to have a stable country unless you respect the rights of the 
people in your country. We've seen more and more countries' governments 
fall because they did not adhere to that basic principle of human 
rights, and that's been the hallmark of the Helsinki Commission.
    Now, I want to thank Mischa Thompson for her leadership in 
convening this. She has been an advocate on our commission on the issue 
effecting full participation in the realities of minority communities 
and the challenges they have in Europe, and she has been an outspoken 
leader for bringing us together on this subject, and it helps a great 
deal.
    The first basic point that we need to win on is for people to 
understand, governments to understand, Europe to understand that 
there's strength in diversity and they shouldn't fear diversity. That's 
been tough in Europe. Europe has had countries that have been built 
around certain ethnic communities, and inclusion's been a very 
difficult path for Europe to embrace. The United States has had a rough 
past towards full participation. But today I think this country 
recognizes that in diversity we have strength. Congressman Hastings 
mentioned the state I represent in Maryland where we are becoming a 
majority minority state, where the majority of people of this country 
will not be Caucasian. That is happening throughout many parts of our 
country. We've embraced diversity, and we have gained a great deal 
because of diversity.
    Secondly, we have to understand that you need a strategy and you 
need to understand it will not happen overnight. Inclusion: It just 
doesn't happen overnight. I wish it did. Congressman Hastings mentioned 
the civil rights campaign that we're now celebrating milestones at 50 
years, the March on Washington. We celebrated that milestone. We will 
celebrate the milestone or passage of major civil rights legislation. 
Yet today we still have problems in America. We have racial profiling 
in our state, in our country, which is unacceptable. We condemn it. It 
still takes place.
    We're on that path, and we have developed strategies so that we can 
use best practices. Then lastly, I want to comment on how I think the 
OSCE has really adopted a tolerance agenda, recognizing that there are 
many aspects to that. I applaud the work of ODIHR. I applaud the work 
that we've done in pointing out ways that you can develop strategies 
that can work. Yes, we've done that for the Roma population, and we 
know that we're far from where we need to be for the Roma population of 
Europe. We've done it in regards to anti-Semitism, and we've made major 
progress in fighting anti-Semitism, but we see backsliding on anti-
Semitism. There's no sure path to accomplish our agenda.
    But we know that when you develop a strategy, when you develop 
leaders, when you get government officials sensitive to what you're 
trying to achieve, where you share best practices and put spotlights on 
countries that could do better, progress is made.
    That's why we were so pleased that you have this conference today 
that allows us to share and develop a strategy. I can tell you the U.S. 
Helsinki Commission is very interested in participating with you to 
accomplish the objectives that you set out.
    With that, again, I want to point out that we are gifted in our 
Helsinki Commission to have the leadership of Alcee Hastings, who has 
been there fighting these issues not just on behalf of those of African 
descent, but he's been there on behalf of minorities in religion, in 
ethnicity, in geography and has made a huge difference not only in 
America but in Europe and around the world. We look forward to being 
your partners are we achieve that goal that is so important because it 
carries out our core belief of equality but also recognizing the 
importance it is to have a stable and peaceful world.
    We look forward to working with you.
    Mr. Hastings. Thank you. I really do appreciate it all, Senator.
    The senators are fewer in number but the portfolios are the same. 
They've bounced from meeting to meeting to meeting virtually all the 
time. But I'm very grateful to you, Ben, and if you get an opportunity 
to come by our luncheon, you're welcome as well.
    I wanted to go very briefly to Ms. Bvumburah. When you mentioned 
Malta--I think I heard you say that people of African descent, not just 
the immigrants that come through there in the Mediterranean or the 
people that tragically die out in the ocean trying to get to freedom, 
but once they're there, and the few that the government allows to 
become citizens, for whatever reason, what are their opportunities in 
politics? I think I heard you say that there was no political 
participation.
    Ms. Bvumburah. Thank you very much for that question.
    I'm a British citizen living in Malta. I'm not even allowed to vote 
there. Recently this year, beginning of this year, we had our 
elections, the Maltese elections, but anyone who's not, you know, a 
native Maltese is not allowed to vote. As a result, you cannot 
participate in any political movement or do anything.
    I as an EU citizen, I'm not even allowed to participate, in Malta, 
yet I have got permanent residence in that country. The migrants who 
come in, who don't even have papers or nothing to identify them, 
they've got no chance whatsoever.
    Mr. Hastings. Hmm. Interesting.
    Mr. Momodou, you brought up the subject of children born in 
Ukraine. Patently they don't have any rights, I gather, as citizens, 
just birthright by virtue of being born there.
    Mr. Momodou. Yes, not in Ukraine, but you have the problem in a 
country like Germany, for example. There are children that are born in 
Germany that by virtue of their birth don't get automatically 
citizenship, and with that comes a lot of a series of problems. That 
excludes a lot of people of African descent that live there, that are, 
for example, children of American soldiers that are based in Germany 
that today are grown-ups but they still don't have citizenship in 
Germany, and they're born and raised there. They don't have 
possibilities to represent the people of African descent in Germany in 
any political institutions because they don't have the citizenship.
    Mr. Hastings. Is that true throughout or is it different? Go right 
ahead. We--hold on. We'll get you a mic. Tell us again who you are and 
the country you're from.
    Questioner. My name is Jamie Schearer. I'm from the Initiative 
Black People in Germany. So I live in Germany. I was born in Berlin. 
Germany actually does have with some states agreements for dual 
citizenship, but unfortunately both of my parents were non-German when 
I was born. The law has actually changed, but you need to have at least 
eight years of permanent residency in Germany for your child to get the 
passport, the nationality--the citizenship. So there are a lot of 
children who are born in Germany who even if your parents don't have 
documents, you're born into the same situation and can be deported even 
if you've lived for 18 years in this country. So those are also cases, 
and they're very important, you know, to notice, that this is something 
that's still going on in Germany. While right now there are the 
negotiations for the new government, basically this is a topic that has 
been spoken about, and they're not going to have the dual citizenship. 
So this will go on, basically.
    Mr. Hastings. All right.
    Let me then turn to yet another question and ask any of the 
panelists--and then I'll open it to everyone here--has there ever been 
or do you foresee there ever being a Europe-wide black or all-minority 
movement similar to the civil rights movement in the United States? I 
guess--Jallow, can you talk about recent efforts toward developing an 
EU strategy by your European Network Against Racism? Anybody else that 
wishes to chime in, please do so. Yes, sir.
    Mr. Momodou. Thank you. As far as I know, there isn't an EU-wide, 
you can say, pan-African organization that's working with civil rights 
equivalent to the ones that you have in the United States. But the 
European Network Against Racism, which is, as I mentioned, an umbrella 
organization, in which we're trying to push policies that would make 
the European Parliament and the EU focused on formulating policies that 
would fight against specific types of racism affecting different groups 
in Europe.
    Now the people of African descent, for example, is one of these 
groups, and we have an ad hoc committee that is working in implementing 
a framework of action. We have documents here available both in paper 
format and digital format, for those people that are interested.
    The idea is to create exactly what you're asking, to make sure that 
this framework of action would be some kind of a platform in which a 
network would be built similar to the civil rights movement in the 
U.S., gradually, and this network that we have here visiting is a part 
of that. We want to establish this will be a movement that will be 
throughout Europe and would be representing people of African descent 
and fighting for the rights--civil rights and human rights of people of 
African descent.
    The European Network Against Racism is somehow a facilitator 
throughout this process because we have a direct contact to the 
European Commission and the European Parliament. We do lobby for these 
issues, and we come with policy recommendations to the 
parliamentarians. We recently had in fact one of our first conferences 
at the EU Parliament. That was hosted by an EU parliamentarian from 
France. He's been fantastic in helping us to create this positive 
narrative and to create this movement, you would say, at a political 
level, EU political level. So we're working on that.
    Mr. Hastings. All right. All right.
    Yes, sir.
    Mr. Asante-Yeboa. In Ukraine, in Russia and then also in Moldova 
and other countries of the former Soviet republics, it's not an 
institution, but it's quite understood that when we talk about people 
of African descent, it refers to the Ukrainian-Africans. Then when you 
talk about migrants or immigrants, it refers to those of us who either 
went there for one reason or another, that--study, or those who come 
there because of--maybe economic migration.
    Now adding a little bit to the question you asked, Ukraine, Russia, 
Moldova has a lot of what we'll call African-descendants. They don't 
have the same rights as the children of other citizens. Those whose 
fathers are from Africa and their mothers are from Ukraine have even 
more acute situations than those of us who are completely Africans 
living there. I have my colleague from Moldova. If he gets the 
opportunity to also just give you a brief about it, you'll be very much 
surprised. While they have the nationality as Ukrainians or they have 
the nationality as Russians, they have the nationality as Moldovans. 
They have the same degrees as others, but they don't get the 
opportunity to work. That is it.
    The young ones, also, are at times being discriminated, even by 
their own fellow peers. The government isn't doing much; it seems they 
don't see the need for them to take steps to address this issue.
    I would next like to talk about one person who--he is African 
Ukrainian, and he never ever thought of ever going to Africa or--going 
to Africa or calling himself an African, but when some young guys of 
his age got him on the road, beat him for having a mobile phone that--
to them, he was not supposed to have it, because he doesn't have the 
same color as them. That was the first day he asked his father, where 
are you from, and can I get information about it, please?
    Thank you.
    Mr. Hastings. Yeah, understood. We have about five more minutes, 
regrettably. I wish we had more. If I had shut my mouth more, maybe you 
would have had more. But is there anyone in the audience--yes, sir, 
over here.
    Questioner. Hi [continuing]. Hello, thanks so much. I'll make this 
quick. I'm Spencer Boyer; I'm a visiting scholar at Johns Hopkins 
University and an adjunct professor at Georgetown School of Foreign 
Service, and thank you for putting on this great briefing. I've worked 
very closely with Mischa on a number of things. I used to be a Deputy 
Assistant Secretary of State for European and Eurasian Affairs during 
the first term of the Obama administration and worked very closely with 
our foreign service colleagues throughout Europe and Eurasia on issues 
of inclusion, tolerance, respect for diversity, and so truly appreciate 
your comments and understand your challenges. My question is on an 
issue that was just touched on in terms of generational differences, 
and I appreciate your comments on Ukraine. I wanted to know from the 
panelists, if anybody else has any comments on differences, on 
generational perspectives, on inclusion and challenges and if second, 
third-generation folks of African descent are having the same issues 
and problems as those who are more recent newcomers, and whether they 
work together on these issues.
    Thanks.
    Mr. Olomoofe. Thank you. That is something that is a challenge, 
because parts of what we've understood with contemporary forms of 
racism is that--and you've mentioned something; you mentioned the word 
``back-sliding''--is that a lot of the stuff that we're dealing with 
today is stuff that previous generations dealt with. The challenge has 
been to convince people that it's still an issue, because it was dealt 
with 20 years ago.
    For instance, you hear monkey chants in sporting arenas--well, that 
was 30, 40 years ago in the U.K.; you hear it again now in Central and 
Eastern Europe and actually, in Western European places. In fact, the 
sports people are the ones propagating this particular form of 
discrimination. So the challenge has been really to deal with--or to 
get people to understand that it's still an issue.
    Also, from what we see as well, we call it unconscious forms or 
maybe automatic reflexes in terms of racism, where even members of 
discriminated groups and minorities propagate this same form of 
discrimination. So we mentioned Roma; a lot of Romani communities will 
tell you that Roma are beggars, are criminals, and will actually, in a 
sense, repeat these forms of discrimination and these epithets.
    In fact, actually, I've noticed from my own personal experiences--
I'm not going to go into them right now, because there are just far too 
many too deal with--crossing borders, where people who actually ask you 
these questions are people who you would actually assume would 
understand that you should not be asked these questions, because they 
look like you. That has also been a challenge, in a sense, to try and 
get the message across to say discrimination has kind of morphed into 
something much more subtle and therefore, requires a more sophisticated 
and nuanced approach.
    In a sense, tying it back to one of the things that you mentioned 
with religion--it's not simply finding collaboration across--or with 
religious or faith-based institutions or organizations or entities, 
it's across the whole spectrum, because in a sense, another challenge--
you talk about the generational gap--we, the younger or slightly 
younger generation, are now propagating or promoting particular forms 
of discrimination internally. We have sexism; we do have homophobia and 
we do have other forms of discrimination and intolerance that we need 
to be challenging internally, not just as people of African descent, 
but across all spectrums; those are human rights and advocates of human 
rights.
    The experiences that we've witnessed--and Charles was with me in 
Kiev last week--where you have an advocate for a particular issue, 
justifying homophobia in a human rights setting is something that is 
also, I would say, generational, because there was a big difference 
between this particular participant and the other group, who was 
slightly younger and more kind of congruent with contemporary forms of 
discourses around human rights. So there is that particular distinction 
that needs to be addressed and therefore, an intervention needs to bear 
this in mind and it shouldn't just be, you know, some sort of 
previously driven issue or program, because it would just miss a number 
of targets in the society.
    Mr. Hastings. Right, regrettably, we are going to have to end 
there. I want to address Brother Boyer's comment a different way. 
Thinking about where we've come in America, it really took us a hell of 
a long time to even get to the point where we are. I again exercise 
personal prerogative--I'm fifth-generation Floridian; my great-great 
grandmother was a slave and was part African and part Creek Indian, so 
I guess she got it going and coming in her period.
    But it was not until that fifth generation, me that we began the 
active movement to try to make the dramatic changes that my foreparents 
and others' foreparents had experienced in various ways during slavery 
and segregation. My children, particularly the youngest ones, don't 
know much about that history, and they live a different experience than 
did I. I find it fascinating that I'm always educating them about the 
struggle and the fact that the struggle continues. When they are faced 
with it, then they come to me and ask me about events over the course 
of time that we've read about, seen, heard and witnessed.
    I saw a man yesterday, and let me say bluntly: America does not 
come to this experience with the cleanest of hands. We've been 
evolving, but we are nowhere near where we should be in terms of 
overall diversity. I'm a constant critic. Folks say to me, oh, well, 
you're in Congress--well, so what? There are still people who can't get 
elected because they're black in this country. That's the only reason 
they don't get elected, not because they're not smart, not because they 
don't have the wherewithal; it's just because they're black.
    I've come at this a lot of different ways. Folk ask me, when I 
became a federal judge, did it happen that I was black that caused it 
to come about, that I was the first African-American appointed as a 
federal judge in the state of Florida? I say, yeah, it did have 
something to do with it, because if you look at it the other way, being 
white had something to do with everybody that was appointed before me.
    Then the same thing happened when I got elected to Congress, the 
district was drawn in a fashion that allowed that African-Americans 
would have an opportunity to win some seats. So, about 16 of us in the 
south won elections in 1992. A reporter came to me and asked me, do you 
think it's right that districts were drawn and your district was drawn 
so that you could win an election? I said, yeah, well, it took us 129 
years in Florida for an African American--and there were three of us, 
two women, one here still here, Corrine Brown from Jacksonville, Carrie 
Meek from Miami and myself, were the first African Americans to come to 
Congress in 129 years.
    I said, well, you did redistricting that excluded us for 129 years 
and if I had had my way--and I think a lot of blacks missed this in 
this country--I would have just asked, OK, then redistrict it for 129 
years so I can win. But guess what they're doing now? They're going 
back to fairness, they say. We want to have fairness, so we want it to 
be more open, because too many of you all got elected. Please learn 
this, that every time you learn the rules, the rules are going to 
change, and they have done this over and over and over again.
    We can't stand here and tell you about immigration reform without 
taking into consideration that this body that we are sitting in did 
pass an immigration measure that didn't go nearly as far as I would 
have it go, and the body that I serve in over on the other side, where 
you're getting ready to go, won't even put it on the floor so that we 
can have an up-or-down vote on immigration reform. We have so-called 11 
million people here that are undocumented, a significant number of them 
sharing the Spanish language.
    So President Obama, when he ran around the country saying, ``si se 
puede,'' or yes we can, this fellow said--(in Spanish)--or, the 
struggle continues, OK?
    Thank you.

                                   [all]




                                    

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
